                                   Department of the Interior
                                   Office of Inspector General



                 AUDIT REPORT




                  U.S. Fish and Wildlife Service
               Wildlife and Sport Fish Restoration
                 Program Grants Awarded to the
              State of Montana, Department of Fish,
              Wildlife and Parks, From July 1, 2005,
                      Through June 30, 2007




Report No. R-GR-FWS-0004-2008                          August 2008
                United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                     Reston, VA 20191

                                                                                   August 4, 2008

                                      AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Christina M. Bruner
           Regional Manager, Eastern Region

Subject:   Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of Montana, Department of Fish, Wildlife and Parks,
           From July 1, 2005, Through June 30, 2007 (No. R-GR-FWS-0004-2008)

        This report presents the results of our audit of costs incurred by the State of Montana
(State), Department of Fish, Wildlife and Parks (Department) under grants awarded by the U.S.
Fish and Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife and
Sport Fish Restoration Program (the Program). The audit included claims totaling approximately
$40.4 million on 40 grants that were open during State fiscal years (SFYs) ended June 30 of
2006 and 2007 (see Appendix 1). The audit also covered Department compliance with
applicable laws, regulations, and FWS guidelines, including those related to the collection and
use of hunting and fishing license revenues and the reporting of program income.

       We found that the Department complied with applicable grant accounting and regulatory
requirements. We did not identify any reportable conditions. We therefore do not require a
response to this audit report.

        If you have any questions regarding this report, please contact the audit team leader, Mr.
Bill Streifel, or me at 703–487–5345.

cc:   Regional Director, Region 6, U.S. Fish and Wildlife Service
                                               Introduction
Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives

Our audit objectives were to determine if the Department:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope
Audit work included claims totaling approximately $40.4 million on the 40 grants that were open
during SFYs 2006 and 2007 (see Appendix 1). We performed our audit at Department
headquarters in Helena, MT, and visited 2 regional offices, 6 wildlife management areas, 4 fish
hatcheries, and 15 motorboat access locations (see Appendix 2). We performed this audit to
supplement, not replace, the audits required by the Single Audit Act Amendment of 1996 and by
Office of Management and Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and


1
    16 U.S.C. §§ 669 and 777, as amended, respectively.

                                                          2
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Department used hunting and fishing license revenues solely for
       administration of the Department; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of Department operations.

Prior Audit Coverage
On November 21, 2005, we issued “Final Audit Report on the U.S. Fish and Wildlife Service
Federal Assistance Grants Administered by the State of Montana, Department of Fish, Wildlife
and Parks, from July 1, 2001, through June 30, 2003” (No. R-GR-FWS-0007-2004). We
followed up on all recommendations in the report and found that although the U.S. Fish and
Wildlife Service, Region 6 considered the recommendations to be resolved and implemented, the
U. S. Department of Interior, Office of the Assistant Secretary for Policy, Management and
Budget continued to monitor the recommendations as not resolved or implemented.

We reviewed the Single Audit Report of the State of Montana and the Consolidated Annual
Financial Report for the two fiscal years ended June 30, 2007. Neither report contained findings
requiring corrective actions by the Department.

We also review the financial compliance audit of the Department of SFYs 2006 and 2007. The
Montana Legislative Audit Division, which completed the audit, made six recommendations.
We considered these recommendations when we selected our samples for testing. The
conditions identified in the financial compliance audit were either not relevant to our audit or
were not found in our testing results.
                                                 3
                                  Results of Audit
We found that the Department complied with applicable grant agreement provisions and
requirements of the Acts, regulations, and FWS guidance. The report contains no reportable
findings and no recommendations, and no further action is necessary.




                                              4
                                                       Appendix 1

MONTANA DEPARTMENT OF FISH, WILDLIFE AND PARKS
   FINANCIAL SUMMARY OF REVIEW COVERAGE
         JULY 1, 2005 THROUGH JUNE 30, 2007

   Grant Number     Grant Amount      Claimed Costs
    F-22-L-21                    0                 0
    F-51-D-17          $ 2,485,702       $ 2,352,737
    F-51-D-18            2,276,944         2,276,944
    F-54-B-1                65,000            63,681
    F-61-E-17              500,914           768,783
    F-61-E-18              515,436           313,098
    F-62-DB-4              183,273           171,384
    F-63-B-6               450,537           446,925
    F-63-B-7               274,200           298,051
    F-68-B-8               175,000            10,776
    F-89-R-12                9,209             9,209
    F-89-R-13                9,051             9,051
    F-94-B-3             2,350,000           911,088
    F-95-B-10              317,481           641,042
    F-95-B-11              312,022           630,347
    F-103-D-2              285,000           350,000
    F-106-B-3              152,550           154,701
    F-109-D-2            1,623,370         1,333,302
    F-113-R-6            4,822,799         4,908,872
    F-113-R-7            4,926,972         4,926,972
    F-114-B-4              881,528           666,486
    F-115-B-2              212,950           214,939
    F-116-B-2               29,500            24,525
    F-118-B-1              636,409           638,365
    F-119-B-1              116,995           105,221
    F-120-B-1              101,413           122,778
    F-121-B-1               29,500            29,500
    F-121-B-2               29,518            23,607
    F-122-LB-1             131,160           106,555
    F-122-LB-2             263,115           263,422
    F-123-B-1               48,000            45,668
    F-124-B-1              249,488           252,320
    F-125-B-1              100,000            69,091
    F-126-B-1               49,978            67,363
    FW-8-R-4F              340,074           599,191
    FW-8-R-4W              580,964         1,074,833
    W-133-E-36             617,036           617,036
    W-133-E-37-H           557,493           716,634
    W-154-R-6            7,500,694         7,375,239
    W-154-R-7            7,111,444         6,781,126
    Totals            $41,322,719       $40,370,862


                         5
                                                      Appendix 2

         STATE OF MONTANA
DEPARTMENT OF FISH, WILDLIFE, AND PARKS
            SITES VISITED

               Headquarters

                  Helena

                  Regions

            Region I (Kalispell)
            Region II (Missoula)


        Wildlife Management Areas


            Blackfoot-Clearwater
              Garrity Mountain
                  Ninepipe
                    Pablo
                 Ray Kuhns
                 Threemile

              Fish Hatcheries

              Flathead Lake
                  Jocko
              Murray Springs
                 Washoe

          Motorboat Access Areas

      Somers                    Echo Lake
      Lake Mary                 Sportsman Bridge
      Ronan                     Upsata
      Elmo                      Russel Gates
      Walstad                   Cleanwater Crossing
      Ducharme                  Harpers Lake
      Woods Bay                 Salmon Lake
      Big Fork                  Placid Lake



                     6
  Report Fraud, Waste, Abuse ,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone:Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free            800-424-5081
                  Washington Metro Area        703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
